March 31, 2009

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

MICHAEL J. FANNING
MANAGER, ENVIRONMENTAL POLICIES AND PROGRAMS

SUBJECT: Final Audit Report – Recycling Opportunities – Pacific Area
         (Report Number DA-AR-09-005)

This report presents the results of our self-initiated audit of U.S. Postal Service recycling
programs in the Pacific Area (Project Number 08YG034DA000). Our objective was to
evaluate recycling programs at high-revenue facilities to identify opportunities to expand
on those successes. See Appendix A for additional information about this audit.

Conclusion

The Pacific Area has a profitable recycling program. Specifically, two of the eight
Pacific Area performance clusters, San Diego and Santa Ana, are among the top 10
recycling revenue-generating districts in the nation.1 However, there are opportunities
to expand recycling programs in the Pacific Area, particularly in the Los Angeles and
Honolulu Districts, due to insufficient management support and the absence of formal
recycling contracts in some districts.

There are also opportunities to strengthen controls over contractor pickups. This
occurred because management at Postal Service facilities in the Pacific Area did not
use consistent methods to verify the volume of recyclable material collected by vendors.
Consequently, the volume of recyclable materials generated and related revenues could
be less than optimal. Strengthening these controls would give the Pacific Area added
assurance that recycling revenue is properly collected and accounted for.




1
    The San Diego and Santa Ana performance clusters ranked number one and four, respectively.
Recycling Opportunities – Pacific Area                                                            DA-AR-09-005



Additionally, recycling revenue in the Pacific Area accrued in Account Identifier Code2
(AIC) 149, Sale of Paper, Plastic and Other Recyclables, is inaccurate. For example,
the Los Angeles and San Diego Districts were offsetting trash hauling and recycling-
related expenses with recycling revenue, and portions of recycling revenue generated in
the Santa Ana and San Diego Districts were credited to the wrong account. These
conditions occurred because districts were not aware of current guidelines for recording
recycling transactions. As a result, the Pacific Area cannot adequately assess if
recycling goals were achieved. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Pacific Area Operations:

1. Provide additional recycling training to maintenance and operations personnel
   responsible for conducting recycling activities and expand recycling programs
   throughout the area.

We recommend the Manager, Environmental Policies and Programs, improve
awareness of policies and procedures that:

2. Require appropriately designated site personnel to certify the tonnage of recyclable
   material and trash collected by contractors.

3. Require accurate recording of recycling revenues.

Management’s Comments

The Postal Service agreed with the recommendations and will take appropriate actions
to resolve the issues by July 31, 2009. Specifically, the Pacific Area agreed to take
steps to ensure additional training is provided to appropriate personnel. The
Environmental Policies and Programs office will work in coordination with the Memphis
Commodity Management Center (CMC) to provide the resources for site personnel to
evaluate and certify tonnages of recycled material. Further, they will provide training
resources for site personnel to ensure they are aware of the proper AICs to be used for
each type of recycled material and will post procedures for cross checking the accuracy
of contractor monthly reports.

While the Postal Service agreed with the recommendations and recognized there are
opportunities to expand the existing recycling program, they disagreed with the
conclusion that these opportunities exist due to insufficient management support. They
stated the Los Angeles District’s successful recycling program was developed with
support of the Memphis CMC under its Total Waste Management initiative. In addition,
the Pacific Area stated the Environmental function recently reorganized and established
17 positions nationwide to focus on recycling. See Appendix C for management’s
comments in their entirety.

2
    AICs are three-digit codes that assign financial transactions to the proper account on the general ledger.




                                                             2
Recycling Opportunities – Pacific Area                                 DA-AR-09-005




Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, Engineering,
or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Samuel M. Pulcrano
    Deborah M. Giannoni-Jackson
    Dwight M. Buchanan Jr.
    Raymond A. Levinson
    Katherine S. Banks




                                            3
Recycling Opportunities – Pacific Area                                                      DA-AR-09-005



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Recycling is the process of returning used material to a manufacturer for reprocessing
and reuse. The Postal Service’s environmental policy requires recycling programs to be
established at every level of the organization, including headquarters, area offices, and
the performance clusters. At a national level, the Postal Service has targeted three
materials for 100 percent recycling:

    •   Undeliverable standard mail (USM)
    •   Discarded lobby mail (DLM)
    •   Old corrugated cardboard (OCC)

In addition to the general advantages of environmental sustainability, recycling USM,
DLM, and OCC results in reduced disposal costs and generates revenue where markets
are favorable. In March 2008, the Postal Service established annual goals for
increasing its recycling revenue from $7.5 million in fiscal year (FY) 2007 to $40 million
by FY 2010. As of FY 2009, the Postal Service has tracked revenues generated from
recycling activities in two AICs – AIC 149 and AIC 156, Sale of Miscellaneous Items and
Non-Capital Equipment.3

A recent Postal Service study entitled “Business Case Evaluation for Postal Service
Recycling”4 concluded that recycling paper, cardboard, and other materials:

    •   Will substantially decrease Postal Service solid waste disposal costs.
    •   Can generate new revenue.
    •   Does not interfere with normal postal operations.
    •   Requires only modest incremental effort.

Postal Service recycling programs can be administered through local agreements or
national contracts. National recycling contracts are negotiated and managed by the
Eastern Services CMC in Memphis, TN.




3
  AIC 149 tracks revenues generated from the sale of paper, plastic, and other recyclables. AIC 156 tracks revenues
generated from the sale of miscellaneous items and non-capital equipment, including scrap metals and unserviceable
postal and building supplies. In FY 2008, the Postal Service also tracked recycling revenues in AIC 151, Vehicle
Supplies and Service Reimbursements.
4
  Study prepared August 31, 2007, by URS Group, Inc.




                                                         4
Recycling Opportunities – Pacific Area                                DA-AR-09-005



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the Pacific Area’s recycling programs at high recycling
revenue facilities to identify opportunities to expand on those successes. We focused
on the Pacific Area in response to concerns expressed by Environmental Policy and
Program (EPP) management at Postal Service Headquarters that there were disparities
in recycling programs within some areas, particularly the Pacific Area. To obtain an
understanding of Postal Service recycling programs, we reviewed relevant
documentation, including pertinent Postal Service handbooks and manuals, and
conducted interviews with EPP management. To assess the recycling revenues
generated in the Pacific Area during FYs 2007 and 2008 and identify high recycling
revenue facilities, we reviewed recycling revenue performance reports prepared by EPP
staff. We also reviewed a sample of invoices for recycling and trash hauling services in
the Pacific Area. To identify recycling program successes and opportunities for
improvement, we conducted site visits to judgmentally selected Pacific Area facilities
and interviewed the Pacific Area Manager, Environmental Programs, as well as various
Pacific Area Environmental Specialists.

We conducted this performance audit from September 2008 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We reviewed policies and
procedures for internal controls, discussed our observations and conclusions with
management officials on February 26, 2009, and included their comments where
appropriate.




                                           5
    Recycling Opportunities – Pacific Area                                      DA-AR-09-005



    PRIOR AUDIT COVERAGE

    Report Title        Report Number        Final Report Date               Report Results
Estimated Supply        CA-MA-08-001         January 10, 2008    The OIG determined that management
Chain                                                            practices could be strengthened for
Management                                                       waste, trash, and recycling services
Impact Associated                                                contracts. We recommended
with Waste, Trash,                                               standardized procedures for file
and Recycling                                                    management, and payment tracking
Services                                                         for waste, trash, and recycling
                                                                 services contracts. In addition, we
                                                                 recommended developing reports and
                                                                 procedures that adequately account
                                                                 for revenue from recycling contracts.
                                                                 Postal Service management agreed
                                                                 with the findings and
                                                                 recommendations.
U.S. Postal               GAO-08-599            June 2008        The U.S. Government Accountability
Service, Mail-                                                   Office (GAO) identified opportunities
Related Recycling                                                for the Postal Service to increase the
Initiatives and                                                  recycling of mail-related material and
Possible                                                         to encourage mailers to increase the
Opportunities for                                                amount of mail with environmentally
Improvement                                                      preferable attributes. They
                                                                 recommended EPPs revise the
                                                                 agency’s recycling goals to include
                                                                 savings from lower waste disposal
                                                                 costs or adopt additional goals that
                                                                 would reflect the full financial benefit
                                                                 attributable to mail-related recycling.

                                                                 In addition, GAO recommended that
                                                                 these programs ensure that the mail-
                                                                 related recycling plan specifies how
                                                                 the Postal Service will (1) measure
                                                                 progress toward its goals and (2)
                                                                 ensure that the data it uses for these
                                                                 measurements are accurate, reliable,
                                                                 and collected using a consistent
                                                                 method.

                                                                 Postal Service management agreed
                                                                 with the findings and
                                                                 recommendations.




                                                     6
Recycling Opportunities – Pacific Area                                                        DA-AR-09-005



                                APPENDIX B: DETAILED ANALYSIS

Opportunities to Expand Recycling Programs

Although Postal Service policies5 call for strong recycling programs in each area, there
are opportunities to enhance and expand recycling programs in the Pacific Area,
principally due to inadequate management support and the absence of formal recycling
contracts in some districts. Specifically:

    •    No environmental specialist is assigned to the Honolulu District to coordinate
         environmental and recycling programs.

    •    The Los Angeles District has not been provided dedicated resources to
         implement its recycling program, such as personnel, workhours, and funding,
         since 2001.

    •    Most field managers in the Pacific Area have responsibilities other than recycling
         and focus mainly on compliance issues.

Expanding the Pacific Area’s recycling program would increase the overall success of
the Postal Service’s recycling program and enhance the associated revenue.

Internal Control Improvements Needed Over Pickups

The Pacific Area had opportunities to strengthen controls over contractor pickups
because facility managers did not use consistent methods to verify the volume of
recyclable material collected by vendors. Specifically, the Pacific Area:

    •    Did not have a formal process to confirm how much trash or recycling waste was
         actually being picked up by the contractors.

    •    Relied primarily on vendors to provide data on recycling tonnage.

Consequently, the volume of recyclable materials generated and related revenues could
be less than optimal. Also, there is an increased risk that recovered recyclable material
is not properly collected and accounted for.

In response to our audit findings, the EPP office has tasked the Acting Manager,
Recycling, to work directly with the Los Angeles District Manager to assess and improve
recycling and waste disposal activities.

5
 Postal Service Handbooks, AS-550-A and AS-550-B, Paper and Paperboard Recycling Guide and Plan, dated
September 1997, outline the Postal Service’s policy for recycling, recycling goals and strategies, and information
about the purchase and sale of recyclable material and program development and implementation. Handbook
HBK-EL-890, Paper and Paperboard Recycling and Plastics from Postal Operations, and Management Instruction
MI-EL-890-2007-5, Integrated Waste Management, are currently being updated.




                                                          7
Recycling Opportunities – Pacific Area                                                    DA-AR-09-005



Reported Recycling Revenue Is Not Accurate

Recycling revenue in the Pacific Area accrued in AIC 149 was inaccurate. For example,
some Pacific Area Districts, including the Los Angeles and San Diego Districts, offset
trash hauling and recycling-related expenses with recycling revenue. In addition,
recycling revenue in some districts was credited to an incorrect AIC. Specifically,
portions of recycling revenue generated in the Santa Ana and San Diego Districts were
credited to incorrect accounts, including a general account for miscellaneous revenues,
instead of being credited to AIC 149. These conditions occurred because districts were
not aware of current guidelines for recording recycling transactions.

Postal Service accounting policy6 requires revenue to be classified by source. By
misclassifying recycling revenue, Pacific Area Districts may be understating amounts in
reports that convey their progress in meeting recycling revenue goals.

In response to our audit findings, the EPP office alerted facilities in the Santa Ana and
San Diego Districts to the proper procedure for accounting for recycling revenue. The
EPP office also instructed all field offices to discontinue commingling waste disposal
costs with recycling revenue. To facilitate this transition, field budgets allocated
additional funds to cover trash hauling and recycling-related expenses that had
previously been offset by recycling revenues.




6
  Handbook F-23, Accounting Policy Reference, establishes general accounting policies for the Postal Service. It
requires the Postal Service to prepare its financial statements in accordance with Generally Accepted Accounting
Principles (GAAP). According to proper accounting procedures in GAAP, recycling revenue and costs should not be
combined and reported as net revenue.




                                                        8
Recycling Opportunities – Pacific Area                      DA-AR-09-005



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                         9
Recycling Opportunities – Pacific Area        DA-AR-09-005




                                         10
Recycling Opportunities – Pacific Area        DA-AR-09-005




                                         11
